1919 Pennsylvania Avenue NW
Suite 800
Washington, DC 20006-3401
Robert Corn-Revere
202.973.4225 tel
202.973.4499 fax
bobcornrevere@dwt.com

March 4, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Bethany Austin v. State of Illinois,
No. 19-1029

Dear Mr. Harris:
I am counsel of record for Petitioner Bethany Austin in the above-referenced case. I am writing
to inform the Court that Petitioner consents to the filing of amicus curiae briefs by any entity and
in support of either party or neither party.
Sincerely,

Robert Corn-Revere
cc:

Counsel for Respondents

